OIG Audit Report GR-60-08-004

Use of Equitable Sharing Revenues by the Douglas County Sheriffs Office, Omaha, Nebraska

Audit Report GR-60-08-004


February 2008
Office of the Inspector General


Executive Summary


 The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of the use of DOJ equitable sharing revenues received by the Douglas County Sheriff’s Office (DCSO) in Omaha, Nebraska. Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.1 During the period of July 1, 2005, through June 30, 2007, the DCSO was awarded DOJ equitable sharing revenues totaling $1,278,356 and property valued at $64,929 to support law enforcement operations. 
 We reviewed the DCSO’s compliance with six essential equitable sharing guidelines and identified the following issues related to non-compliance. 

 The current Federal Sharing Agreement was submitted late.
A new Federal Sharing Agreement was not submitted when an administration change occurred. 
 The Annual Certification Report submitted for Fiscal Year (FY) 2006 was submitted late. 
 The Annual Certification Reports submitted for FYs 2006 and 2007 contained inaccurate information and were not complete. 
 We identified $4,750 in questioned costs related to the DCSO purchasing equipment for a local non-profit without certifying the non-profit’s eligibility, background, or compliance with the 1994 Equitable Sharing Guide. 
 An equitable sharing receipt of $377 was deposited into the incorrect account, and has not yet been transferred to the correct equitable sharing account. 

 The results of our work are discussed in greater detail in the Findings and Recommendations section of this report. The audit objectives, scope, and methodology appear in Appendix I. 



Footnotes

The DOJ asset forfeiture program has three primary goals: (1) to punish and deter criminal activity by depriving criminals of property used or acquired through illegal activities; (2) to enhance cooperation among foreign, federal, state, and local law enforcement agencies through equitable sharing of assets recovered through this program; and (3) as a by-product, to produce revenues to enhance forfeitures and strengthen law enforcement.








Return to OIG Home Page